No. 19-659

INTHE

$Upreme QI:ourt of tbe Wniteb $1ates
MILADIS SALGADO,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 17th day of December, 2019, I caused three copies of the Brief of Amici
Curiae Law and Economics Scholars in Support of Petitioner to be served by third-party
commercial carrier on the counsel identified below, and caused an electronic version to
be transmitted to the counsel identified below, pursuant to Rule 29.5 of the Rules of this
Court. All parties required to be served have been served.
Justin Pearson

INSTITUTE FOR JUSTICE

2 S Biscayne Blvd, Suite 3180
Miami, FL 33131

Noel J. Francisco

SOLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE

JPearson@IJ.org

950 Pennsylvania Ave, NW
Room 5616
Washington, DC 20530

Counsel for Petitioner

SupremeCtBriefs@USDOJ.gov

(305) 721-1600

(202) 514-2217

Counsel for Respondent

